                             CLOSEOUT FOR M-93100056




seven NSF proposals.1 Seven of the allegations involved the violation of the confidentiality of the
peer review process that resulted in the publication of the complainants' proposed ideas by
reviewers; one allegation involved the intellectual theft of complainant #l's ideas by a research
collaborator; and one allegation involved a conflict of interest (COI) with two reviewers for one of
the complainants' proposals that resulted in negative reviews. The complainants also alleged that
violations of the confidentiality of the peer review process occurred with proposals they submitted
to the National Institute of Standards and Technology and the Nuclear Regulatory Commission.
The complainants informed these agencies of their allegations.




                                       Page 1 of 4                               M93-56
-                            CLOSEOUT FOR M-93100056

                                                 subject #                                   ubject


        Allegation 1. Subject #1 allegedly violated the confidentiality of peer review when he
published10ideas gained through the review of complainant #llsNSF proposals-
                 OIG determined that subject #1 did not r e v i e w e e s e propods. OIG
concluded that there was no substance to the allegation that subject #1 violated the confidentiality
of peer review.

       Allegation 2. Subjects #2 and #3 allegedly violated the confidentiality of peer review
                                              gh the review of NSF proposals-
                                               OIG determined that neither subject reviewed any of
                                                 was no substance to the allegation that subjects #2
and #3 violated the confidentiality of peer review.
                                                                                                       :
                                                                                                       ;
                                                                                                       1




                                                                                                       !
                                                                                                           I
                                                                                                           I




        Allegation 3. subjects #4 and #5 allegedly violated the
                                 gained through the review of NSF proposals
                                OIG determined that neither
proposals. OIG concl ded that there w p go substance to the allegation that subjects #4 and #5
                       I
violated the confidenti' ity of ~ @ ' M i e v i % w .




 .   G 5   :---   ."


                                       Page 2 of 4
                              CLOSEOUT FOR M-93100056




#6 violated the confidentiality of peer review.


published14ideas gained through the review O ~ N S proposal
the computerized proposal
                   -  -
                                                      F       N
        Allegation 5. Subject #7 allegedly violated the confidentiali of eer review when he
                                                                                  OIG~Sreview of
                             and award system showed that subject #7 had not participated with
the review of the complainants' proposal. Subsequently, OIG learned that the NSF program
had not entered all the names of the panel members associated with this proposal into the
computerized database and that subject #7 had been a panel member on the committee that
considered the complainants' proposal. In his role as a panelist, subject #7 received a copy of the
complainants' proposal. At OIG's request, an NSF program officer, who was knowledgeable in
the relevant field of study, evaluated the ideas the complainants claimed were unique to their
proposal and that appeared in subject #7's publication. The program officer concluded that these
ideas were common knowledge and did not originate with either the complainants or subject #7.
Consequently, OIG concluded that there was no substance to the allegation that subject #7 violated
the confidentialityof peer review.




reviewed any of these proposals. OIG concluded that there was no substance to the allegation that
subject #8 violated the confidentiality of peer review.

        Allegation 7. Subjects #1, #2, #7 and #8 allegedly shared ideas gained through the review
of the complainants' NSF proposals with each other. A review of the alleged links between the
subjects as described by the complainants showed no evidence that any of these subjects shared




D
                                        Page 3 of 4
                                    CLOSEOUT FOR M-93100056

       ideas gained through the review process. OIG concluded thh there was no substance to the
       allegation that these subjects violated the confidentiality of peer review by sharing ideas gained
       through the review of the complainants' proposals.

                Allegation 8. Sub'ect #9 alle edly used ideas, without complainant #lls permission, fiom
       an NSF-funded p r o p o g u b r n i t t e d jointly by complainant #1 and subject #9. The
       jointly funded proposal was for the purchase of equipment and the ideas presented in it were to
       justdj the equipment purchase. OIG determined that the ideas in the jointly fbnded proposal were
       part of a collaborative relationship that apparently ended when complainant #1 departed fiom the
       grantee institution three years later. Subject #9 had been working in the area of study represented
        by the jointly fbnded proposal before it was submitted. After complainant #lls departure, subject
        #9 continued to work in this area of study and received another NSF grant to do so. Eight years
        after the joint proposal was funded, subject #9 published results that complainant #1 alleged had
        stemmed fiom ideas contained in their joint proposal. OIG dekrmined that, even if subject #9's
        published results represented ideas originally presented in their joint proposal, he was under no
        obligation to get complainant #l's permission to publish them eight years later. OIG concluded
        that there was no substance to the allegation that subject #9 committed intellectual theft.

                                   complainants believed that subjects #7 and #10 reviewed their NSF
                                  The complainants claimed that subjects #7 and #lo had an earlier
                                   that strongly influenced p h of them and that both subjectsbsupported
       technologies that competed with those in the compl&antsl proposal. As a result, the complainants
       alleged that both subjects had undeclared COIS and that, consequently, their evaluations were
       unfair. OIG determined that one of the two subjects did not review the complainants' NSF
       proposal, and, while the other subject did review the complainants' proposal, there was no
       evidence that he had a COI or that his review was unfair. OIG noted that the subject's review was
       similar in substance and final appraisal to the other reviews of the complainants' proposal. OIG
       concluded that there was no substance to the allegation that subject #10 had a COI that resulted in
       an unfar review of the complainants' proposal.
                                                                                    t


               This inquiry was closed and no fbrther action will be taken.         .

P
' ..




                                              Page 4 of 4
